U N I T E D S T AT E S G O V E R N M E N T P R I N T I N G O F F I C E

                        O ffice of I nspector G enera l




    Semiannual Report
       to the Congress




                        October 1, 2006 through March 31, 2007
The U.S. Government Printing Office                        The Office of Inspector General

For well over a century, the mission of the U.S. Gov-      The Office of Inspector General (OIG) was created
ernment Printing Office (GPO) under Public Print-          by the GPO Inspector General Act of 1988—title II
ing and Documents statutes of title 44 of the United       of Public Law 100-504 (October 18, 1988). The mis-
States Code has been to fulfill the needs of the Federal   sion of the OIG at GPO is to provide leadership and
Government for information products and to distrib-        coordination as well as recommend policies that will
ute those products to the public. GPO is the Federal       prevent and detect fraud, waste, abuse, and misman-
Government’s primary centralized resource for gather-      agement. The OIG also recommends policies that
ing, cataloging, producing, providing, authenticating,     will promote economy, efficiency, and effectiveness in
and preserving published U.S. Government informa-          GPO’s programs and operations.
tion in all its forms. GPO also produces and distrib-
                                                           The OIG is dedicated to acting as an agent of positive
utes information products and services for each of the
                                                           change designed to help the GPO improve its efficien-
three branches of the Federal Government.
                                                           cy and effectiveness as it undertakes its era of unprec-
Under the Federal Depository Library Program, GPO          edented transformation. It offers an independent and
distributes a broad spectrum of Government publica-        objective way of keeping the Public Printer and Con-
tions both in print and online formats to more than        gress fully informed about problems and deficiencies
1,250 public, academic, law, and other libraries across    along with any positive developments relating to the
the country. In addition to distributing publications,     administration and operations of the GPO. To meet
GPO provides access to official Federal Government         those responsibilities, the OIG conducts audits, evalu-
information through public sales and other programs,       ations, investigations, inspections, and other reviews.
and—most prominently—by posting more than a
quarter of a million titles online through GPO Access
(www.gpoaccess.gov).

Today about half of all Federal Government docu-
ments are born digital products and will be published
directly to the Web. GPO will never actually print
those products. Such an evolution of creating and
disseminating seriously challenges GPO. But GPO
is meeting the challenges by transforming from
primarily a print format to an entity capable of
delivering information products and services in a
flexible digital platform. While introduction of
digital technology may change the way GPO products
and services are created and how they look or
function, GPO will continue to satisfy the changing
information requirements of Government and
accomplish its mission of Keeping America Informed.
Contents
Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1
Highlights of this Semiannual Report  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  3
OIG Management Initiatives  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  3
Review of Legislation and Regulations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4
GPO Management Challenges  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  6
Office of Audits and Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
       A.	 Summary of Audit and Inspection Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
       B.	Audit Accomplishments – Audit and
           Inspection Reports  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
       C.	 Financial Statement Audit Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
       D.	 Peer Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
       E.	 Status of Open Recommendations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
   A.	 Summary of Investigative Activity  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
       B.	 Types of Cases  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
       C.	 Status of Action on Referrals  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
       D.	 Investigative Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  21
       E.	 Work-In-Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   21

Appendices
       A.	 Glossary and Acronyms  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           23-24
       B.	 Inspector General Act Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
       C.	 Statistical Tables
       	Table C-1: Audit Reports with Questioned and
         Unsupported Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          26
       	Table C-2: Audit Reports with Recommendations
         for Funds That Can Be Put to Better Use  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         27
       	Table C-3: List of Audit and Inspection Reports Issued During
         Reporting Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     28
       	      Table C-4: Investigations Case Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       29
       	      Table C-5: Investigations Productivity Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  31
     Message from the Inspector General

     I recently came across a fairly critical review of Inspectors General
     suggesting that while IGs do good work, the result of recent IG activity
     was “an unhealthy situation . . . in which the IG culture has undermined
     public management.” While it might be easy to dismiss such criticism
     out of hand as the author is a registered lobbyist for two firms that do
     business with the government, the author is also a professor of public
     management at Harvard University and his comments warrant consider-
     ation. The author opines that most IG reports:

     ◆ Favor punishment and are highly critical of agencies for being
      insufficiently punitive rather than urging management to do more
      to reward achievement.

     ◆ Focus on controls, as opposed to creativity, which inhibits creative and
      innovative problem solving.

     ◆ Focus on problems rather than accomplishments, which creates a
      culture that “demoralizes civil servants, whose sense of commitment
      to their agencies’ missions is a crucial driving force for better work.”

     OIGs are duty bound to ferret out fraud, waste, abuse, and mismanage-
     ment as well as to provide leadership, coordination, and promote
     economy, efficiency, and effectiveness within our respective agencies.
     What the author observes is arguably the antithesis of our responsibilities.

     While not everyone will agree with the author, his comments certainly
     caused me to pause and reflect on my own office and reminded me of the
     importance for regularly examining our own internal operations. In that
     regard, we should be looking for ways, both within the OIG and with our
     Agency, to reward achievement, seek creative and innovative solutions
     for solving problems, and ensure our work is meaningful and engenders
     a sense of commitment and purpose. Not only would our offices and
     agencies be better served by continuous improvement in those areas, so
     too would the American public as beneficiaries of such process improve-
     ment. At minimum, it is worthy of consideration.

     This semiannual report of the U.S. Government Printing Office (GPO)
     Office of Inspector General (OIG) summarizes our work from October
     1, 2006, through March 31, 2007. The audits, inspections, investigations,




1	                        Office of Inspector General Semiannual Report to Congress
and other activities highlighted in this report demonstrate the ongoing
commitment of the OIG to promote integrity, accountability, efficiency,
and effectiveness in the programs and operations of the GPO.

During this reporting period, GPO continued to make significant
progress in its efforts to transform into a 21st century information
processing and dissemination operation. And, the OIG continued to
focus on several technology-laden initiatives critical to transformation
efforts of GPO. In that regard, the OIG made its selection for a contrac-
tor who will perform Independent Verification and Validation of GPO’s
Future Digital System (FDsys). We are awaiting authorization from the
Joint Committee on Printing (JCP) to finalize the procurement.

In our efforts to protect the public from fraud, waste, abuse, and
mismanagement, the Office of Audits and Inspections completed a fol-
low-on report of GPO’s purchase card program. The audit identified
internal control and other issues that, when corrected, will improve the
program’s overall effectiveness. Additionally, the Office of Investiga-
tions continued its efforts to expose workers’ compensation fraud. An
investigation resulted in orders for restitution in excess of $900,000.

The cooperation between GPO managers and the OIG has enabled
us to work together to resolve a variety of issues. I continue to be
hopeful that the spirit of cooperation will improve. And, as we urge
GPO management to be customer focused, involve people in decision
making, and embrace continuous improvement, the OIG must not
only reflect upon, but also engage in, continuous improvement. The
dedication and commitment of the OIG staff will be a crucial driving
force toward that effort.




J. Anthony Ogden
ACTING INSPECTOR GENERAL
U.S. Government Printing Office




Office of Inspector General Semiannual Report to Congress 	                 
Highlights of this Semiannual Report                        acted on a variety of matters as OIG liaison to the GPO
                                                            General Counsel and to the Office of the Chief of Staff.
During this reporting period, the OIG continued to
direct its resources addressing those areas of greatest     OIG Management Initiatives
risk within GPO. We provided a variety of services, in-
cluding program and financial audits, inspections and
                                                            Personnel Update
assessments of key operations, and investigative activi-
ty resulting in criminal and administrative actions. We     Daniel Rose joined OAI as an Information Technology
also continued to provide general and professional          (IT) Specialist.  Dan comes to the OIG from Science
assistance and reviews of proposed legislation and          Applications International Corporation (SAIC), where
regulations. The work of each of the OIG components         he worked approximately two years as a Senior
is summarized below.                                        Systems Security Engineer and provided information
                                                            assurance and certification/accreditation support
The Office of Audits and Inspections (OAI) issued five      services for the Defense Information Systems Agency
reports with a total of 30 recommendations for im-          Before he worked for SAIC, Mr. Rose was a software
proving GPO operations, including strengthening             engineer for SPARTA.
internal controls throughout the Agency. OAI also
continued to work jointly with GPO management to            Executive Council on Integrity and
close a significant number of open recommendations          Efficiency
from previous reporting periods. OAI also received an       The President’s Council on Integrity and Efficiency
unqualified opinion on a peer review the OIG at the         (PCIE) and the Executive Council on Integrity and
National Science Foundation conducted.                      Efficiency (ECIE) were established by Executive Order
                                                            12805, May 11, 1992, to coordinate and enhance
The Office of Investigations (OI) opened                    governmental efforts to promote integrity and
25 new investigative cases in response to 298 new           efficiency and to detect and prevent fraud, waste, and
complaints or allegations and closed 32 matters.            abuse in Federal programs. The PCIE primarily com-
Through its investigative efforts during this period,       prises Inspectors General (IGs) that the President
OI recovered $947,742 and helped GPO realize cost           appoints, and the ECIE primarily comprises IGs that
savings of approximately $656,400 through the               agency directors appoint. The OIG at GPO is a
successful investigation of workers’ compensation           member of the ECIE and participates regularly in the
fraud. Finally, as a result of a criminal conviction, the   activities of that Executive Council.
subjects of an OI investigation were ordered to make
$117,222 in restitution to GPO.                             During the previous reporting period, the Senate
                                                            Appropriations Committee acknowledges in Senate
The Office of Administration/Legal Counsel (OALC)           Report 109-267, Legislative Branch Appropriations
manages the OIG budget and human resources needs.           (2007), that a majority of legislative branch agencies
OALC also provides legal advice and counsel on issues       have either a statutory or administrative IG to conduct
arising during the course of audits, inspections, and       and supervise audits and investigations relating to
investigations, including opinions regarding legal          the programs and operations of their entity. The
accuracy and sufficiency of OIG reports. During the         Committee recognizes the benefits of coordination
reporting period, OALC reviewed five administrative         and formal communication between and among IGs
subpoenas and assisted OI with several matters              through the PCIE and ECIE and urges in the report that
accepted for civil and criminal prosecution by the          the legislative branch IGs communicate, cooperate, and
Department of Justice (DOJ). In addition to its other       coordinate with each other on an informal basis.
duties throughout the reporting period, OALC also



	                                                          Office of Inspector General Semiannual Report to Congress
In response to the Committee’s request, legislative              Review of Legislation and Regulations
branch IGs began coming together as a group. Dur-
ing this reporting period, both the Library of Congress          The OIG, in fulfilling its obligations under the
IG and House of Representatives IG hosted a meeting.             Inspector General Act of 1978, reviews existing
The meetings have helped establish formal communi-               and proposed legislation and regulations relating
cations and contact between the legislative branch               to programs and operations of GPO. It then makes
IGs. In addition, the IGs are beginning to develop               recommendations in each semiannual report on the
an inventory of unique skills in each of the various             impact of such legislation or regulations on the
legislative branch OIGs. While such an inventory will            economy and efficiency of programs and operations
provide a resource for identifying available personnel           administered or financed by GPO. In an effort to assist
if the opportunity presents itself to share resources,           the Agency in achieving its goals, we will continue to
more importantly, the process will help identify                 play an active role in this area.
cross-training needs and perhaps even facilitate coor-
dination on future audits applicable throughout the              During this reporting period, the OIG commented
legislative branch. Quarterly meetings will rotate               generally to GPO management on the process for
among the IG offices of the legislative branch. Up-              establishing, updating, and communicating GPO
dates and the progress of those meetings will be pro-            directives to Agency employees. The OIG urged
vided Congress in our respective semiannual reports.             that management maintain the legal integrity of the
                                                                 directives to ensure their effectiveness. While simplify-
The 9th Annual PCIE/ECIE Awards Ceremony was held                ing directives may make them easier to read, the
on October 24, 2006 at the Andrew W. Mellon Audito-              OIG expressed concern that oversimplifying GPO
rium in Washington, DC. Supervisory Auditor Joseph               directives could diminish their legal effectiveness and
Verch and Senior Auditor Patricia Mitchell, the GPO              enforceability. Additionally, the OIG again urged GPO
Travel Audit Program Team, received an Award for Ex-             management to update the directive regarding the
cellence in recognition of outstanding work in recom-            GPO workers’ compensation program. The OIG
mending improvements in management controls and                  previously made several recommendations regarding
business processes related to all aspects of the GPO             the workers compensation directive. The recommen-
travel program. Congratulations to Joe and Patricia.             dations will be evaluated in the pending audit of
                                                                 the GPO workers’ compensation program. While
                                                                 there were no legislative proposals relating to GPO
                                                                 programs and operations, the OALC, at the request
                                                                 of the ECIE, commented to the ECIE legislative
                                                                 committee regarding two bills recently introduced
                                                                 that would amend the IG Act.




From left to right: Supervisory Auditor, Joseph Verch receives
a PCIE/ECIE Award for Excellence from ECIE Vice Chairman
and Federal Reserve Board Inspector General Barry Snyder.




Office of Inspector General Semiannual Report to Congress 	                                                              
GPO Management Challenges                                     the needs of its customers. While the challenges
                                                              associated with such a move will be significant for
As GPO management understands, aggressive                     the Agency, Congress must still approve any
transformation efforts also pose substantial and              relocation of GPO’s operations. During a recent
difficult risks that could affect a smooth and success-       House Appropriations hearing, Members of Congress
ful transformation process. The OIG previously pro-           expressed interest in this issue and urged that the
vided management a list of issues most likely                 Agency continue to work closely with Congress
to hamper the Agency’s transformation efforts if              toward approval. While the OIG has not performed
not addressed with elevated levels of attention and           a review of the proposed move, the information re-
resources. We again update the management challeng-           viewed thus far supports significant savings in cost.
es in this semiannual report and will continue                Accordingly, the OIG encourages management to
to provide updates in future reports.                         continue making this matter a significant priority.

The former Public Printer, in his last two reports to         Our update of management challenges follows:
Congress, acknowledged that the challenges were
                                                              1. Strategic Planning. As previously noted, to realize
“vital to GPO’s continuous transformation.” More-
                                                              and sustain GPO’s Vision, each individual business
over, he noted that “it is critical that the next Public
                                                              unit within the Agency must develop and implement
Printer incorporates all of these challenges and that
                                                              its own clear and succinct strategic plan that aligns
the current progress being made on each of them
                                                              with GPO’s Strategic Vision for the 21st Century.
continues. GPO cannot afford to reverse its course, if
                                                              We have urged business units to develop plans that
it expects to be at the cutting edge of new technology
                                                              cascade goals and objectives from the Agency’s plan
and an industry leader in the digital age.” We concur
                                                              to help achieve employee buy-in and ensure that
with that assessment and note that management
                                                              transformation efforts stay on track. In the absence of
continues to make progress.
                                                              clearly articulated plans, senior management will
In our last report, the OIG expressed concern with            have a difficult time determining whether the various
the Agency’s acquisitions process. In this report,            business units are working together toward a common
we raise that concern to a significant management             strategic goal. During this reporting period, GPO
challenge. We note below in more detail the                   Organizational Architects made significant progress
importance of assembling a highly professional and            in implementing the provisions of the Government
trained contracting workforce skilled at carrying out         Performance Results Act (GPRA). While not required
nontraditional acquisitions.                                  to follow all of the mandates of GPRA, Congress
                                                              has urged GPO to embrace its tenets. Indeed, the
We also note with interest the issue of a new facility        Organizational Architects have helped the Agency
for GPO. As previously reported, GPO management               identify specific goals, objectives for each goal, and
has maintained for years that the current GPO facility        ways of measuring success. While not necessarily
is too large and antiquated and requires an extraordi-        constituting development of individual business unit
nary amount of financial resources for operation and          plans (a strategy we continue to urge), identifying
maintenance. The estimates for upkeep of the build-           specific goals and objectives does help address the
ing for Fiscal Year 2008 exceed $35 million. The              underlying issue—ensuring that business units work
Agency proposed to Congress a plan for relocating             toward common goals and advancing the GPO’s
to new facilities specifically sized and equipped for         Strategic Vision. We are encouraged that GPO man-
future requirements and to more effectively meet              agement has made the effort a priority. Continued




Office of Inspector General Semiannual Report to Congress 	                                                        
progress will help ensure that transformation efforts      an integrated system of Oracle enterprise software and
stay on track during this critical transition time.        applications. The new system will provide GPO with
                                                           integrated and flexible tools that will help successfully
2. Management of Human Capital. We previously high-        support business growth and customer technology
lighted challenges GPO faces in its efforts to “right-     requirements for products and services. To oversee
size” the Agency workforce while at the same time          and support such a complex effort, the GPO Oracle
attract employees with the right skill sets for the new    Program was created. While investment in the inte-
GPO. The Chief Human Capital Officer will continue         grated system presents opportunities for enhanced
to confront significant issues related to transformation   efficiency and cost savings, it also presents significant
of the GPO workforce and must advance creative solu-       risk in the event the system does not meet user
tions for ensuring that the Agency meets its ongoing       requirements. GPO must ensure implementation
workforce needs, in part by building a diverse,            happens on time, within budget, and with a satisfac-
qualified applicant pool. In our last report, the OIG      tory result.
highlighted a need for a comprehensive telework
program. Since that time, GPO established an Agency        The OIG contracted Independent Verification and
policy. While some issues still need resolving,            Validation (IV&V) activities for two early implemen-
establishing a telework program was an essential next      tation projects related to GPO’s implementation of
step for successful long-term implementation and           the Oracle E-Business suite. The objective of IV&V is
“buy-in” of the telework program. The telework             to provide GPO with an independent assessment of
program will also help address certain critical continu-   project status, satisfaction of user needs, and project
ity of operations (COOP) issues.                           cost effectiveness. To that end, the IV&V already iden-
                                                           tified several vulnerabilities with the two projects
With an increased demand for passport production,          and made recommendations that GPO management
Human Capital must also address current and ongo-          strengthen controls to mitigate the risks associated
ing needs of plant operations to ensure that a reliable    with those vulnerabilities. Management concurred
workforce is in place that can meet requisite security     with each of the recommendations and proposed re-
requirements and understand the need for strict            sponsive corrective actions. We will continue IV&V ef-
quality assurance and compliance in the passport pro-      forts as the Oracle implementation continues. Other
duction facility.                                          issues identified this year included customer billing.
                                                           For example, KPMG LLP (KPMG), the Independent
The results from the GPO Employee Survey released          Public Accountant (IPA) conducting GPO’s annual
during this reporting period show that while job sat-      financial statement audit, found several internal con-
isfaction is relatively high, “communications at GPO”      trol issues related to customer billing in this year’s
stands out as not having improved since 2004. When         [FY 2006] audit. KPMG identified that some custom-
compared to results from the 2004 Federal Human            ers were duplicate billed by almost $1 million in one
Capital Survey, GPO actually rated lower in almost all     instance and overbilled by approximately $275,000
identical items. Human Capital has, however, devel-        in another.
oped a plan that addresses these and other challenges
as well as provides opportunities for improvement at       4. Continuity of Operations. An OIG review of the GPO
GPO. Improving communications at GPO will require          COOP planning revealed that the Agency may not be
ongoing support from management.                           adequately prepared to deal with a significant event
                                                           such as a natural or man-made disaster. Our report
3. Improved Financial Management. GPO has been             included several recommendations including, most
migrating current business, operational, and finan-        fundamentally, that GPO adopt the planning require-
cial systems, including associated work processes, to      ments and critical elements identified in Federal




	                                                         Office of Inspector General Semiannual Report to Congress
Preparedness Circular (FPC) 65. GPO management                need strengthening to ensure that purchase cards are
must address this problem if it will be able to               used in an efficient and cost-effective manner by only
continue its essential functions and resume normal            authorized users and for legitimate GPO needs. We
operations within a time frame acceptable to its              also found that controls related to the examination
customers and business partners.                              and payment process need improving to ensure that
                                                              documentation supports purchase card transactions
In response to our recommendations, GPO developed             and that the transactions are properly reviewed and
a comprehensive draft COOP plan based on the                  approved for payment by the appropriate authorities.
Federal Emergency Management Agency (FEMA)                    In the audit, we identified several control problems
template of key COOP components. The draft plan               related to purchase cards and recommended ways to
addresses issues such as essential functions, interoper-      strengthen controls over purchase card use and also
able communications, delegations of authority                 ensure cards are used efficiently, cost effectively, for
and testing, training, and exercises. The Agency also         only documented GPO needs and in compliance with
developed an Occupant Emergency Plan (OEP) as a               applicable laws, regulations, policies, and procedures.
companion to its COOP. The OEP establishes the
appropriate response in the event of an emergency             The annual financial statement audit by KPMG
and addresses all known or anticipated categories of          identified several internal control issues and provided
emergencies.                                                  management with additional corrective actions. While
                                                              GPO management recognizes the need to improve the
Although the Agency has taken these important                 current internal control environment if the Agency is
initial steps, further steps must be taken to ensure a        to successfully implement its strategic vision, and has
comprehensive COOP is in place. Steps include                 planned future initiatives in this area, management
identifying, acquiring, and designating a backup              action is even more important because of upcoming
facility for passport production. In addition, items          changes that elevate even further the importance of a
such as identifying and pre-positioning minimum               sound internal control program. Of particular impor-
essential equipment and supplies at designated                tance is the implementation of Statement on Auditing
backup locations for critical Agency functions is also        Standards (SAS) No. 112, “Communicating Internal
a critical requirement. Once it identifies the necessary      Control Related Matters Identified in an Audit.” SAS
facilities, supplies, personnel, and equipment,               112 establishes standards and provides guidance on
the Agency should run a real-time COOP exercise.              communicating matters related to an entity’s inter-
                                                              nal control over financial reporting identified in a
5. Internal Controls. GPO management is responsible           financial statement audit. The standard requires that
for establishing and maintaining a system of inter-           the auditor communicate control deficiencies that are
nal controls to achieve the objectives of effective and       “significant deficiencies” and “material weaknesses.”
efficient operations, reliable financial reporting, and
compliance with applicable laws and regulations. In           6. Security and Intelligent Documents. Management
addition, practically every OIG audit includes an as-         considers Security and Intelligence Documents (SID)
sessment of a program, activity, or function’s applica-       the most important business unit for the future of
ble control structure.                                        GPO. Since our last report, SID continued its business
                                                              development addressing Government credentials and
OIG audits during this reporting period again ad-             had to re-examine its request for proposal (RFP) for
dressed issues with internal controls. For example, in a      production capability of smartcards. Although show-
follow-on OIG audit of purchase cards we found that           ing some progress in meeting unprecedented demand
management and supervisory controls over GPO card-            from the Department of State, the production
holder use and reporting of purchase card activities          of blank passports remains a significant concern from




Office of Inspector General Semiannual Report to Congress 	                                                          
a security and quality assurance perspective. A recent
misprint resulted in the loss of numerous electron-
ic passports at a significant cost to GPO.
The issue highlights serious security
and product integrity                                                                      for the late deliveries
concerns and underscores                                                                  include changes in
the need for qual-                                                                staffing, reorganization of the
ity manage-                                                          workforce, use of “use-it-or-lose-it” leave
                                                               during critical times, and various IT matters.
                                                             Indeed, GPO management took seriously the issues
                                                            JCP raised and responded to their concerns. Some
                                                           of the issues raised appear to be systemic, and GPO
    ment independent                                       management must identify long-term solutions for
from production. The                                       the concerns of GPO’s principal customer. Moreover,
OIG will carefully re-                                     the solutions must also employ strategies for contin-
view those issues in upcoming reporting periods. The       ued process improvement
passport production facility underwent an external
physical security review and the results of that review    8. Information Technology and Systems (IT&S)
will be forthcoming. Redesign of the production            Management. As GPO transforms from an ink-on-
area to enhance security, while reported as underway       paper operation to a highly secure multimedia digital
in our last report, requires attention.                    dissemination environment, management of the
                                                           Agency’s IT resources becomes critical to the success
Although other concerns received significant atten-        of the GPO vision and mission. The acquisition,
tion, several matters must remain a priority for GPO       implementation, and sustaining engineering issues
management. Among those concerns are finalizing            associated with IT&S, including security issues, provide
a Memorandum of Understanding with the Depart-             GPO with new and emerging management challenges.
ment of State, addressing technology as well as data
security related to the electronic passport, inventory     Noteworthy challenges for IT&S include establishing
volume and storage of blank passport books, and            a top level Enterprise Architecture and support for a
understaffing in the SID business unit. Although we        number of significant initiatives including the Future
note progress regarding certain COOP vulnerabilities,      Digital System (FDsys), E-passport systems, rollout
critical issues must still be addressed and the OIG will   of GPO’s Public Key Infrastructure (PKI), network
focus on these during the next reporting period. SID       management, and the continued implementation of
also continues to advance its plan to provide Home-        the Oracle financial management system. To create
land Security Presidential Directive-12 (HSPD-12)          a plan for mitigating risks to GPO from aging legacy
credentialing services to Federal agencies. To realize     systems, IT&S initiated a legacy application and
the benefits from such an opportunity, management          business impact analysis. Legacy systems increasingly
must continue to ensure the necessary procurement          inhibit GPO ability to respond to customer needs and
and related support to SID.                                must be replaced or worked around. In addition, be-
                                                           cause GPO is a provider of services to agencies of the
7. Supporting Congressional Printing. In recent months,    executive branch who must comply with the Federal
the JCP expressed concerns to GPO management               Information Security Management Act (FISMA),
that apparently stem from late deliveries of printed       GPO has chosen to substantially comply with the
versions of legislative documents the House of             principles of the Act. Complying with FISMA presents
Representatives and Senate require. Reported reasons       additional challenges to IT&S, including protection of




	                                                         Office of Inspector General Semiannual Report to Congress
sensitive Agency information and as well as personal          10. Acquisition. GPO is currently in the implementation
information.                                                  planning phase of FDsys, which is envisioned as being
                                                              a world-class system that will preserve and provide
As the Agency fulfills its mission in the vital arena         permanent public access to information published by
of electronic information dissemination and                   all branches of the Federal Government. Successful
e-Government, GPO established a PKI that will serve           acquisition and implementation of this approximately
the needs of the Agency, its legislative branch partners,     $29 million system is critical to the Agency’s future as
and other Federal partners of GPO. The GPO PKI is             a 21st century information processing and dissemina-
cross-certified with the Federal Bridge Certificate           tion operation.
Authority—a substantial and necessary step toward
using PKI for the benefit of a variety of customers.          In our previous semiannual report, the OIG stated
PKI will serve as an important contributor for future         that we are increasingly concerned with the Agency’s
GPO revenue-generating activities.                            ability to efficiently and effectively acquire the high-
                                                              technology goods and services necessary to transform
To partially meet PKI certification provisions, the OIG       the Agency. Acquisitions such as the FDsys require a
conducts periodic compliance reviews that determine           professionally trained contracting workforce skilled at
whether GPO’s assertions related to the adequacy              carrying out nontraditional acquisitions. As such, we
and effectiveness of controls over its PKI Certificate        are elevating our concern to a management challenge
Authority operations are fairly stated based on               for GPO management to consider as they review the
underlying principles and evaluation criteria. During         organizational and staffing issues confronting the
FY 2007, the OIG is leading an assessment of GPO              Agency. We concur with management’s decision
compliance with FISMA in order to identify gaps               during the last reporting period to separate Acquisition
and deficiencies in the Agency’s overall information          Services from Customer Services and having this
security program as well as specific critical Agency          group report directly to the Deputy Public Printer.
systems. As identified in Management Challenge 3              While we note that management hired a Technical
and Management Challenge 10, the OIG will also                Procurement Manager to focus on complex
lead IV&V activities associated with the ongoing              acquisitions, we also believe that the Agency needs
implementation of the Oracle financial management             to move out in recruiting a Chief Acquisition Officer
system and implementation of the Digital Content              experienced in the FDsys-type of acquisitions.
Management System.

9. Customer Service. As GPO moves closer to its goal
of transforming to a 21st century information and
processing and dissemination operation, its customer
services must reflect and advance that transformation.
To ensure success in the future, GPO management
must maintain the appropriate focus, staffing, and
alignment with its Strategic Vision. The culture and
focus of customer service efforts must reflect a new
way of thinking, and customers should come to
GPO because they want to—not because they have
to. Transformation of the traditional GPO customer
relationship requires a continuing evolution toward
state-of-the-art customer relations management.




Office of Inspector General Semiannual Report to Congress 	                                                         10
Office of Audits and Inspections                              operations that the OIG for the National Science
                                                              Foundation conducted.
OAI, as required by the Inspector General Act of 1978,
as amended, conducts independent and objective per-
                                                              B. Audit Accomplishments – Audit and
formance and financial audits relating to GPO opera-
                                                                 Inspection Reports
tions and programs, and oversees the annual financial         1. Assessment Report 07-01 (Issued November 20,
statement audit performed by an independent public               2006)
accounting firm under contract. In addition, OAI
conducts short-term inspections and assessments of            Report on Early Oracle Implementation: Independent
GPO activities that generally focus on issues limited         Verification and Validation (IV&V)
in scope and time. All OIG audits are performed in            The OIG is conducting ongoing IV&V activities
accordance with generally accepted government audit-          associated with GPO’s implementation of the Oracle
ing standards (GAGAS) promulgated by the Comp-                E-Business suite. GPO is implementing certain
troller General of the United States. When requested,         licensed modules of the Oracle E-Business suite in a
OAI provides accounting and auditing assistance to            series of Incremental Operating Capabilities (IOC). In
the OIG OI for both civil and criminal investigations.        advance of IOC implementation, GPO initiated early
Furthermore, OAI refers irregularities and other suspi-       implementation start-up projects to become familiar
cious conduct detected during audits, inspections, or         with Oracle technology and work process dependen-
assessments to OI for investigative consideration.            cies as well as develop successful project skills and
                                                              user requirements. The OIG initiated IV&V activities
A. Summary of Audit and Inspection                           beginning with two of the early implementation
   Activity                                                   projects. The objective of IV&V is to provide GPO with
During this reporting period, OAI issued five new             an independent assessment of project status, satisfy
audit and assessment reports. Those reports made a            user needs, and project cost effectiveness. To conduct
total of 30 recommendations for improving GPO                 IV&V, the OIG contracted with a nonprofit, scientific
operations, including strengthening of internal con-          research and engineering corporation that operates in
trols throughout the Agency. OAI also continued to            the public interest.
work with GPO management to close open recom-
mendations carried over from previous reporting               The OIG issued a sensitive report summarizing
periods. As of March 31, 2007, 31 recommendations             vulnerabilities identified during the IV&V activities.
remain open. The number of open recommendations               That report includes recommendations to GPO
has decreased significantly from the 54 open as of the        management for strengthening controls and
completion of the last semiannual reporting period.           mitigating risks associated with those vulnerabilities.
Based on our assessment of management’s ongoing               Management concurred with each of the recommen-
actions related to COOP and Oracle implementation,            dations and proposed responsive corrective actions.
we believe that a significant number of these remain-         We considered management’s actions and proposed
ing open recommendations from previous periods                actions responsive to the recommendations.
will be closed during the next reporting period.
                                                              2. Assessment Report 07-02 (Issued November 27,
This reporting period also saw GPO receive an un-                2006)
qualified opinion on its FY 2006 financial statements         Report on WebTrust Assessment of GPO’s Certification
audit. This audit, performed under contract with
                                                              Authority – Attestation Report
KPMG, is overseen by OAI as the Contracting Officer’s
Technical Representative (COTR). OAI also earned an           GPO implemented PKI to support its “born digital
unqualified opinion on a peer review of the office’s          and published to the Web” methodology and meet



Office of Inspector General Semiannual Report to Congress 	                                                          12
GPO customer expectations that documents are                complies with the Government’s X.509 Certificate
official and authentic. The GPO PKI also directly           Policy for the Common Policy Framework (CCP). To
supports the GPO mission related to electronic              satisfy that requirement, the OIG contracted with an
information dissemination and e-Government. The             IPA firm licensed by the AICPA to provide PKI-related
GPO PKI recently became cross-certified with the            assurance services. Between October 30, 2006, and
Federal Bridge Certificate Authority (FBCA), whose          November 17, 2006, the IPA examined GPO’s CPS
certification provisions require that the GPO PKI un-       version 1.7 to determine whether GPO’s assertions
dergo a compliance review. To satisfy this compliance       regarding controls over its Certification Authorities
requirement, the OIG tasked an IPA firm to conduct          were fairly stated based on underlying principles and
a WebTrust assessment of its Certification Authority        evaluation criteria. The IPA issued an unqualified
(CA). The IPA assessed the CA in accordance                 opinion that GPO’s CPS complied, in all material
with the American Institute of Certified Public             respects, with the CCP as of November 10, 2006.
Accountants (AICPA) “WebTrust Principles and
Criteria for Certificate Authorities.” The assessment       4. Audit Report 07-04 (Issued March 30, 2007)
represents an evaluation of whether GPO assertions
                                                            Follow-On Report on GPO Purchase Card Program
related to the adequacy and effectiveness of controls
over its CA operations is fairly stated based on under-     The General Services Administration (GSA), through
lying principles and evaluation criteria.                   a contract with the Bank of America, provides GPO
                                                            with purchase cards for employees to make purchases
GPO management performed a pre-assessment                   for official Government use. The purchase card
designed to identify gaps and deficiencies between          program is intended to provide the Government with
the current GPO PKI environment and the required            financial and cash management control over low-
criteria of the WebTrust Program for CA. During             dollar, high-volume procurements. GPO employees
the final WebTrust phase, controls were tested to           use the purchase cards for various purposes, including
gather support for an opinion regarding compliance          purchasing supplies and services, emergency require-
with applicable WebTrust principles and criteria for        ments, or to support production and field activities.
certification. As a result of work performed in the final   Use of purchase cards by GPO has experienced steady
WebTrust phase, the IPA firm issued an attestation          growth since its inception in FY 1997 when 47 card-
report that expresses their opinion that the assertions     holders charged $130,788 to 94 cardholders charging
of GPO management regarding its CA operations are           $1,322,758 during the first 7 months of FY 2006 (as
fairly stated. This opinion is contained in the final       of April 30, 2006).
report, which is considered sensitive.
                                                            During this reporting period, the OIG performed a
3. Assessment Report 07-03 (Issued November 29,            second audit evaluating the effectiveness of GPO’s
    2006)                                                   purchase card program. The objectives of this audit
Report on GPO PKI Certification Practices Statement         were to (1) determine whether purchase cards are
                                                            used efficiently and cost effectively, and (2) evaluate
Compliance with the Federal Common Policy Framework
                                                            the effectiveness of the examination and payment
As part of GPO’s application to the Federal Identity        process for purchase card transactions. The OIG found
Credentialing Committee (FICC) Shared Service               that management and supervisory controls over GPO
Provider (SSP) Subcommittee in which it seeks to            cardholder use and reporting of purchase card activi-
obtain certification and accreditation as a qualified       ties need strengthening to ensure that purchase cards
bidder for providing managed PKI services, GPO              are used in an efficient and cost-effective manner, by
must submit a report from its PKI compliance auditor        only authorized users, and for legitimate GPO needs.
that the GPO Certificate Practices Statement (CPS)          In addition, controls related to the examination and




13	                                                         Office of Inspector General Semiannual Report to Congress
payment process need improving. Improving controls            5. Assessment Report 07-05 (Issued March 31, 2009)
will ensure that purchase card transactions are sup-
                                                              Report on Peer-to-Peer File Sharing
ported by documentation and are properly reviewed
and approved for payment by the appropriate authori-          GPO Policy 825.29A, Internet and E-Mail Policy,
ties. The audit specifically identified that:                 Section 7b (12), prohibits the “unauthorized acquisi-
                                                              tioning, using, reproducing, transmitting, or distribut-
(1) Unauthorized personnel in GPO’s Central Office           ing of any controlled information. Such information
    have used purchase cards;                                 includes computer software and data that contains
                                                              privacy information, or is copyrighted or trade-
(2) Cardholders purchased goods and services that
                                                              marked, or material with other intellectual property
     were neither required by nor applicable to the
                                                              rights (beyond fair use).” Peer-to-Peer (P2P) file shar-
     needs of the cardholder’s branch, division, or
                                                              ing has been a way of sharing files since mid-1999,
     office;
                                                              and since that time its use has grown dramatically.

(3) Cardholders were not always maintaining
                                                              Although it can be used for legitimate purposes, such
     required records such as invoices, receipts and
                                                              as software collaboration, P2P file sharing is often
     purchase logs to support purchases being made;
                                                              used for the inappropriate or illegal exchange of files.
                                                              P2P file sharing has even been used to post sensitive
(4) GPO employees were incurring state and local
                                                              Federal Government documents to the Internet. P2P
     sales taxes on purchases made with purchase cards
                                                              software is easy to use and acquire. To potentially
     that were otherwise tax-exempt;
                                                              acquire illegally distributed copyrighted as well as
                                                              inappropriate or offensive material, users need only
(5) GPO purchase cards were being used for
                                                              install no-cost P2P client software and enter a search
     making recurring, large-dollar charges to the
                                                              string. Illegal file exchange through P2P networks
     same vendors, potentially circumventing
                                                              has become so common that organizations such as
     established procedures for congressional review
                                                              the Recording Industry Association of America have
     and approval;
                                                              pursued legal action against users of P2P software.
(6) Procedures related to the review and approval
     of monthly bank statements detailing the charges         An OIG assessment of P2P file sharing found that
     made by cardholders were not always being fol-           GPO’s Internet and e-mail policies establish the foun-
     lowed; and                                               dation for monitoring and prohibiting P2P activities.
                                                              However, the OIG identified a P2P file distribution
(7) Two GPO cardholders were having monthly bank             protocol being used within the GPO network domain.
     statements sent to home addresses, and in some           Use of P2P file-sharing software can increase GPO’s
     instances purchased goods were delivered to              IT risks in several ways. Some P2P client software has
     home addresses.                                          known vulnerabilities that can easily be exploited
                                                              remotely and thus compromise the system on which
The OIG recommended to GPO management that it                 the software is installed. Improper configuration
strengthen management and supervisory controls over           of P2P software makes it possible for a user to inad-
GPO purchase card use as well as ensure that cards are        vertently share all files on a computer and network
used efficiently, cost effectively, for only documented       drives with other P2P users. Additionally, illegally
GPO needs, and in compliance with applicable laws,            distributing copyrighted material to or from GPO
regulations, policies and procedures. Management              computers could embarrass the Agency or potentially
concurred with each of the recommendations and                involve it in litigation with copyright holders. We
will implement corrective actions.                            recommended in our report that GPO management




Office of Inspector General Semiannual Report to Congress 	                                                          14
further strengthen controls over P2P. Management             The National Science Foundation issued an unquali-
concurred with our recommendations and proposed              fied opinion, stating that the OAI’s system of quality
responsive corrective actions.                               control in effect for the year ending March 31, 2006,
                                                             met the quality control standards the Comptroller
C. Financial Statement Audit Activity                        General of the United States established for a Federal
Section 309, title 44 of United States Code requires         Government audit organization and that the quality
that GPO obtain an independent annual audit of its           control conformed to applicable auditing standards,
financial statements, which the OIG oversees. Under a        policies, and procedures.
multiyear contract, KPMG was retained to conduct
this audit. The oversight ensures that the audit             E. Status of Open Recommendations
complies with government auditing standards. OAI             GPO management officials continued to make sig-
also assists with facilitating the external auditor’s work   nificant progress in implementing and closing many
as well as reviewing the work performed. In addition,        of the recommendations identified during previous
OAI provides for the KPMG auditors administrative            semiannual reporting periods. Specifically, GPO
support and coordination with GPO management.                management worked to close a significant number
                                                             of open recommendations. For 31 recommenda-
During this reporting period, KPMG completed the FY          tions remaining open, a summary of the finding and
2006 audit of GPO’s consolidated financial state-            recommendations, along with the status of actions
ments. KPMG issued an unqualified opinion, stating           for implementing the recommendation and OIG
that GPO’s financial statements were presented fairly,       comments, appear below.
in all material respects, in conformity with generally
accepted accounting principles. KPMG identified              1. Inspection Report AI0502 (Issued March 31, 2005)
several reportable conditions, including (1) controls
                                                             Blank Passport Product Integrity and Security Review
surrounding the billing process should be strength-
ened, (2) certain reconciliation controls should be          Finding
strengthened, (3) controls over recording and report-        The inspection revealed several weaknesses in the
ing environmental liabilities should be improved,            business processes used for producing blank pass-
and (4) general controls for IT should be improved.          ports. Those weaknesses included missing critical core
KPMG made recommendations for addressing each                competencies, deficient processes, and infrastructure
condition. GPO management concurred with those               issues that require GPO management attention.
recommendations and has either planned or initiated          The OIG also found significant deficiencies regarding
responsive corrective actions.                               manufacture of blank passports, security of com-
                                                             ponent products, and related internal controls that
D. Peer Review                                               require GPO management review and reengineering.
During this reporting period, the National Science
Foundation conducted a review of OAI’s audit                 Recommendation
operations. The peer review was in accordance with           The OIG recommended that GPO improve the
the guidelines that the PCIE and ECIE establish. The         weaknesses identified in the business processes used
objective of the peer review was to determine whether        for producing blank passports that are relevant to all
the internal quality control system was adequate as          documents and operations within GPO’s SID opera-
designed as well as complied with, and provided              tion. GPO’s implementation of the recommendations
reasonable assurance that applicable auditing                should lead to an improved level of security and
standards, policies, and procedures were met.                integrity for the entire SID business line.




15	                                                          Office of Inspector General Semiannual Report to Congress
Management Comments                                               OIG Comments
GPO management generally concurred with the                       Corrective actions for the three remaining recommen-
report’s recommendations and continues to imple-                  dations are in progress. The OIG is working with GPO
ment actions that will correct the conditions.                    management and monitoring implementation of the
                                                                  remaining three open recommendations.
OIG Comments
GPO management provided documentation during                      3. Assessment Report 06-03 (Issued March 31, 2006)
this reporting period that closed four of the eight               GPO Oracle Program Stakeholder Analysis
open recommendations. Management is working on
                                                                  Finding
implementing corrective actions for the remaining
four open recommendations.                                        The assessment identified several vulnerabilities
                                                                  associated with GPO’s Oracle Program and made rec-
2. Assessment Report 06-02 (Issued March 28, 2006)               ommendations to mitigate the risks associated with
GPO Network Vulnerability Assessment                              those vulnerabilities. The vulnerabilities identified
                                                                  during the assessment included: (1) top management
Finding                                                           support was not aligned with program execution;
Although GPO has many enterprise network controls                 (2) inadequate functional and technical staffing
in place, improvements that will strengthen the                   existed; (3) the program lacked a methodology for
network security posture are needed. During internal              organizational restructuring; (4) the program did not
testing, we noted several vulnerabilities requiring               have targeted performance metrics; and (5) and the
a strengthening of controls. However, no critical                 program lacked an effective method of managing the
vulnerabilities were identified during external testing.          progress of the program.
Although unclassified, we consider the results of the
                                                                  Recommendation
assessment sensitive and are limiting our discussion of its
findings. Further details regarding assessment findings           To help ensure the Oracle Program meets the
can be obtained by contacting the OIG.                            expectations of its stakeholders, the OIG made 13
                                                                  recommendations in the areas of staffing, manage-
Recommendation                                                    ment alignment and organizational restructuring, use
The OIG made four recommendations that should                     of performance metrics, and management of program
strengthen internal controls associated with GPO’s                progress.
enterprise network. Those recommendations should
                                                                  Management Comments
reduce the risk of compromise to GPO data and
systems. Based upon corrective action management                  GPO management concurred with each of the report’s
took, the OIG closed one recommendation upon                      recommendations and agreed to take corrective
issuance of the final report.                                     actions throughout implementation of the project.

Management Comments                                               OIG Comments
GPO management concurred with each of the report’s                We closed one recommendation from this report
recommendations and initiated responsive corrective               relating to the appointment of an Executive
actions.                                                          Steering Committee to oversee the Oracle Program.
                                                                  Management satisfied this recommendation by




Office of the Inspector General Semiannual Report to Congress 	                                                       16
appointing an Executive Sponsor along with assigning         a viable COOP plan in the event of a disaster or
responsibilities to the Planning and Strategy Board          significant adverse event. GPO has a comprehensive
and Operating Committee. Implementation of                   draft COOP plan based on the FEMA template of key
the remaining 12 recommendations was delayed                 COOP components. The draft plan addresses essential
pending hire of an Oracle Program Manager, which             functions, interoperable communications, delegations
occurred in March 2007. With the new manager now             of authority, testing, training, and exercises. The Agency
on board, we anticipate progress during the next             has also developed an OEP as a companion to the
reporting period toward closing the remaining open           COOP. The OEP establishes the appropriate response
recommendations.                                             in the event of an emergency and addresses all known
                                                             or anticipated categories of emergencies.
4. Inspection Report 06-04 (Issued March 31, 2006)
                                                             OIG Comments
Inspection of GPO’s Continuity of Operations Plan
                                                             During this reporting period, five of the 17 open
Finding
                                                             recommendations were closed. The OIG is working
The objective of the inspection was to evaluate              with GPO management to monitor implementation
GPO’s existing processes, procedures, and authorities        of the remaining 12 open recommendations.
against Federal Government best practices for
maintaining essential functions in the event of a
disaster or other significant adverse event. We
evaluated GPO’s COOP plan against the FEMA
FPC-65, “Federal Executive Branch Continuity of
Operations.” FPC-65 is the model for best practices
within the Federal Government. Because of the sensitive
but unclassified nature of the inspection, we are limiting
our discussion of findings for purposes of this report.
Further details regarding the inspection’s findings can
be obtained by contacting the OIG.

Recommendation
The OIG made 18 recommendations that should
improve GPO’s plans and procedures for reasonably
ensuring a viable COOP capability in the event of
a disaster or other significant adverse event. GPO
management concurred with each recommendation.

Management Comments
GPO management concurred with each recommenda-
tion and initiated responsive corrective actions. The
actions management took and plans generally provide
the initial framework for establishing and maintaining




17	                                                          Office of Inspector General Semiannual Report to Congress
Office of Investigations                                      the Government in connection with GPO’s procure-
                                                              ment of printing goods and services. These violations
OI conducts and coordinates investigations relating           include, but are not limited to, false claims, false state-
to alleged or suspected misconduct and monetary               ments, wire and mail fraud, product substitution, and
or material losses occurring in GPO programs and              Small Disadvantaged Business Program violations. OI
operations. The subjects of OI investigations can be          has eight open cases involving procurement fraud.
contractors, program participants, GPO manage-
                                                              Employee Misconduct
ment, or other GPO employees. Special Agents in OI
are Federal Criminal Investigators (job series 1811).         OI investigates allegations involving GPO employee
Investigators are also designated as Special Police           misconduct. Allegations include, but are not
Officers in accordance with subsection 317, title 44 of       limited to, misuse of Government computers, theft,
the United States Code. Investigations that uncover           assaults, drug violations, gambling, kickbacks, and
violations of Federal law or GPO rules or regulations         travel voucher fraud. OI has six open investigations
may result in administrative sanctions or civil               involving misconduct.
or criminal prosecution, or both. OI also issues
Management Implication Reports that identify issues           Miscellaneous
uncovered during an investigation that it believes
                                                              OI investigates miscellaneous administrative allega-
warrant prompt attention by GPO management.
                                                              tions and other types of investigations that do not fall
Prosecutions may result in court-imposed prison
                                                              into one of the above categories, for example theft of
terms, probation, fines, or restitution.
                                                              Government property or illegal hacking. OI has seven
A. Summary of Investigative Activity                          open cases involving miscellaneous matters.

During this reporting period and in response to               C. Status of Action on Referrals
298 new complaints or allegations, OI opened 25
                                                              OI’s investigative efforts result in both external and
investigative cases and closed 32 matters. Thirty-one
                                                              internal referrals for action. A summary of the status
of the investigative matters are on-going. OI works
                                                              of outstanding referrals by the OI follows.
with GPO offices throughout the country. During
this reporting period, OI issued three administrative         External
subpoenas.
                                                              We referred five investigative matters to the
B. Types of Cases                                             Department of Justice for prosecution. Prosecutorial
                                                              actions are pending on two matters referred from
The OI’s investigative workload includes the following
                                                              previous reporting periods. Those two matters are:
major categories:
                                                              ◆ The Department of Justice accepted for criminal
Office of Workers’ Compensation Program (OWCP)
                                                               prosecution one OWCP investigation.
The OI investigates GPO employees who have alleg-
edly submitted false claims and made false statements         ◆ The Department of Justice accepted for civil action
to facilitate receiving workers’ compensation benefits.        one matter dealing with fraud.
We are working on ten investigations involving
alleged OWCP fraud.                                           Internal
                                                              A total of four investigative matters referred to GPO
Procurement Fraud                                             management for action remain pending. In addition,
OI investigates allegations of statutory violations           GPO management resolved 12 investigative cases
involving GPO contract service providers defrauding           from previous reporting periods. Agency action in



Office of Inspector General Semiannual Report to Congress 	                                                            20
response to the investigation findings included two         ◆ An investigation into Federal Employee Compensa-
suspensions, nine verbal warnings, and one resigna-          tion Act (FECA) fraud and accepted for criminal
tion in lieu of adverse personnel action.                    prosecution by the Department of Justice remains
                                                             pending. The employee pleaded guilty. Sentencing
OI investigative findings were also forwarded to the         is scheduled for the next reporting period. This
appropriate Agency official for suspension, debar-           matter has already resulted in savings of $2,250 per
ment, or other administrative actions against Agency         year. Final disposition could result in cost savings of
contractors. As a result of OI investigative efforts this    $60,000 per year.
reporting period, the Agency issued two letters of
warning.                                                    ◆ An investigation into a GPO employee’s use of a
                                                             Government vehicle for personal use resulted in the
D. Investigative Accomplishments                             employee receiving a 30-day suspension.
◆ An OI investigation into the theft of approximately
                                                            ◆ As a result of an OI investigation into certification of
 4,430 printer ink cartridges valued at $111,000
 resulted in one of the individuals pleading guilty          fraudulent firearms qualifications scores of Federal
 to theft of Government property. One individual             police officers, two employees received verbal
 was sentenced to 5 months in jail, 180 days of              warnings.
 home detention, 3 years supervised probation, and
                                                            ◆ An OI investigation into alleged travel voucher and
 ordered to pay $111,025 in restitution to GPO. The
                                                             overtime fraud resulted in the issuance of seven
 other individual pled guilty to trafficking in stolen
                                                             verbal warnings to GPO employees.
 property and was sentenced to 2 years probation
 as well as ordered to make restitution of $6,197 to
                                                            ◆ As a result of OI investigative efforts, the Agency
 GPO. Both individuals resigned from GPO before
                                                             issued two letters of warning to agency printing
 their convictions.
                                                             contractors.
◆ An OI investigation into allegations of sexual
                                                            E. Work-In-Progress
 harassment and abuse of a contractor employee by
 a supervisory GPO employee resulted in the GPO             Several significant OI matters remain pending as
 employee resigning his position in lieu of adverse         of the end of this reporting period. Disposition and
 personnel action by the Agency.                            results of those investigations will be detailed in
                                                            future reports.
◆ An OI investigation of a contractor opened in a
 previous reporting period and accepted by the
 Department of Justice is still pending. The contractor
 is alleged to have filed false claims and statements in
 connection with contracts valued at approximately
 $438,000.

◆ Efforts in OWCP fraud investigations have led to
 an actual cost savings of $656,400 for the Agency.
 One OI investigation resulted in ordering restitution
 totaling $947,000 in fraudulent OWCP claims.




21	                                                         Office of Inspector General Semiannual Report to Congress
APPENDIX A: GLOSSARY AND ACRONYMS

Glossary
Allowable Cost - A cost necessary and reasonable for     the recommendation and an estimated completion
the proper and efficient administration of a program     date unless all corrective action(s) is completed by the
or activity.                                             time agreement is reached.

Change in Management Decision - An approved              Material Weakness – a significant deficiency, or
change in the originally agreed-upon corrective action   combination of significant deficiencies, that results
necessary to resolve an IG recommendation.               in more than a remote likelihood that a material
                                                         misstatement of the financial statements will not be
Disallowed Cost - A questionable cost arising from       prevented or detected.
an IG audit or inspection that management decides
should not be charged to the Government.                 Questioned Cost - A cost the IG questions because
                                                         of an alleged violation of a law, regulation, contract,
Disposition - An action that occurs from manage-         cooperative agreement, or other document governing
ment’s full implementation of the agreed-upon            the expenditure of funds; such cost is not supported
corrective action and identification of monetary ben-    by adequate documentation; or the expenditure of
efits achieved (subject to IG review and approval).      funds for the intended purposes was determined by
                                                         the IG to be unnecessary or unreasonable.
Final Management Decision - A decision rendered
by the GPO Resolution Official when the IG and the       Recommendation - Actions needed to correct or
responsible GPO manager are unable to agree on           eliminate recurrence of the cause(s) of the finding(s)
resolving a recommendation.                              identified by the IG to take advantage of an opportu-
                                                         nity.
Finding - Statement of problem identified during
an audit or inspection typically having a condition,     Resolution - An agreement reached between the IG
cause, and effect.                                       and management on the corrective action(s) or upon
                                                         rendering a final management decision by the GPO
Follow-up - The process that ensures prompt and          Resolution Official.
responsive action once resolution is reached on an
IG recommendation.                                       Resolved Audit/Inspection - A report containing
                                                         recommendations that have all been resolved without
Funds Put To Better Use - An IG recommendation           exception, but have not yet been implemented.
that funds could be used more efficiently if manage-
ment took actions to implement and complete the          Unsupported Costs - Questioned costs not supported
audit or inspection recommendation.                      by adequate documentation.

Management Decision - An agreement between the
IG and management on the actions taken or to be
taken to resolve a recommendation. The agreement
may include an agreed-upon dollar amount affecting




23	                                                      Office of Inspector General Semiannual Report to Congress
Abbreviations and Acronyms
CFO	         Chief Financial Officer                          IG Act	   Inspector General Act of 1978

CIO	         Chief Information Officer                        IOC	      Incremental Operating Capabilities

COOP	        Continuity of Operations                         IT&S	Information Technology and Systems

COTR	Contracting Officers                                    IV&V	Independent Verification and Validation
      Technical Representative
                                                              JCP	      Joint Committee on Printing
CPS	         Certificate Practices Statement
                                                              MMAR	Materials Management Acquisition
ECIE	Executive Council on Integrity                                Regulation
      and Efficiency
                                                              OAI	      Office of Audits and Inspections
FDLP	Federal Depository Library
      Program                                                 OEP	      Occupant Emergency Plan

FDsys	       Future Digital (content) System                  OI	       Office of Investigations

FICC	Federal Identity Credentialing                          OIG	      Office of Inspector General
      Committee
                                                              OWCP	Office of Workers’ Compensation
FISMA	Federal Information Security                                 Program
       Management Act
                                                              P2P	      Peer-to-Peer
FSA	         Financial Statement Audit
                                                              PCIE	President’s Council on Integrity
FY	          Fiscal Year                                            and Efficiency

GAO	         Government Accountability Office                 PKI	      Public Key Infrastructure

GAGAS	Generally Accepted Government                          RFP	      Request for Proposal
       Auditing Standards
                                                              SA	       Special Agent
GPO	         U.S. Government Printing Office
                                                              SAIC	Science Applications International
GSA	         General Services Administration                        Corporation

HSPD-12	Homeland Security Presidential                       SID	      Security and Intelligent Documents
         Directive-12
                                                              SSP	      Shared Services Provider
IG 	         Inspector General




Office of Inspector General Semiannual Report to Congress 	                                                   24
APPENDIX B: INSPECTOR GENERAL ACT REPORTING REQUIREMENTS



 Inspector General                                                                         Cross-Reference
                        Requirement Definition
 Act Citation                                                                              Page Number(s)


 Section 4(a)(2)        Review of Legislation and Regulations                                 	        4


 Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies                        	    6-10


 Section 5(a)(2)        Recommendations for Corrective Actions                                	    6-10


 Section 5(a)(3)        Prior Audit Recommendations Not Yet Implemented                       	   15-17


 Section 5(a)(4)        Matters Referred to Prosecutive Authorities                           	   20-21


 Section 5(a)(5)        Summary of Refusals to Provide Information                            	     N/A

                        OIG Audit and Inspection Reports Issued (Includes total
 Sections 5(a)(6) and
                        dollar values of Questioned Costs, Unsupported Costs, and             	   12-15
 5(a)(7)
                        Recommendations for Funds That Can Be Put To Better Use
                        Statistical table showing the total number of audit reports and
 Section 5(a)(8)                                                                              	      26
                        the total dollar value of questioned and unsupported costs

                        Statistical table showing the total number of audit reports
 Section 5(a)(9)        and the dollar value of recommendations for funds that can            	      27
                        be put to better use

                        Summary of prior Audit and Inspection Reports issued
 Section 5(a)(10)                                                                             	     N/A
                        for which no management decision has been made
                        Description and explanation of significant revised
 Section 5(a)(11)                                                                             	     N/A
                        management decision
                        Significant management decision with which the
 Section 5(a)(12)                                                                             	     N/A
                        Inspector General is in disagreement




25	                                                    Office of Inspector General Semiannual Report to Congress
APPENDIX C: STATISTICAL REPORTS

Table C-1: Audit Reports with Questioned and Unsupported Costs

                                                              Questioned   Unsupported   	   Total
 Description
                                                              Costs        Costs




 Reports for which no management decision
                                                              	     $0     	      $0     	       $0
 made by beginning of reporting period




 Reports issued during reporting period                       	     $0     	      $0     	       $0



 Subtotals                                                    	     $0     	      $0     	       $0



 Reports for which a management
 decision made during reporting period

 1. Dollar value of disallowed costs                          	     $0     	      $0     	       $0

 2. Dollar value of allowed costs                             	$112,927    	 $63,935     $176,322



 Reports for which no management decision
 made by end of reporting period                              	     $0     	      $0     	       $0



 Reports for which no management decision
 made within 6 months of issuance                             	     $0     	      $0     	       $0




Office of Inspector General Semiannual Report to Congress 	                                          26
Table C-2: Audit Reports with Recommendations for Funds That Can Be Put to Better Use

                                                        Number of                       Funds Put To
 Description
                                                        Reports                         Better Use




 Reports for which no management decision made by
                                                        	    0                          	     $0
 beginning of reporting period




 Reports issued during the reporting period             	    0                          	     $0




 Reports for which a management decision made           	
 during reporting period

 ◆ Dollar value of recommendations agreed to by
      management                                        	    0	                         	     $0

 ◆ Dollar value of recommendations not agreed to
      by management                                     	    0                          	     $0




 Reports for which no management decision made
                                                        	    0                          	     $0
 by the end of the reporting period


 Report for which no management decision made
                                                        	    0                          	     $0
 within 6 months of issuance




27	                                                 Office of Inspector General Semiannual Report to Congress
Table C-3: List of Audit and Inspection Reports Issued During Reporting Period


 Audit Reports                                                     Funds Put To Better Use



 Report on Early Oracle Implementation:

 Independent Verification and Validation (IV&V)
 (Assessment Report Number 07-01, issued 11/20/06)                 	             $0


 Report on WebTrust Assessment of GPO’s
 Certification Authority—Attestation Report
 (Assessment Report Number 07-02, issued 11/27/06)                 	             $0


 Report on GPO PKI Certification Practices Statement
 Compliance with the Federal Common Policy Framework
 (Assessment Report Number 07-03, issued 11/29/06)                 	             $0



 Follow-On Report on GPO Purchase Card Program
 (Audit Report Number 07-04, issued 03/30/07)                      	             $0




 Report on Peer-to-Peer (P2P) File Sharing
 (Assessment Report Number 07-05, issued 03/31/07)                 	             $0




 Total                                                             	             $0




Office of Inspector General Semiannual Report to Congress 	                                  28
Table C-4: Investigations Case Summary


 Cases Open at Beginning of Reporting Period                                               	       38



 Total New Hotline / Other Complaints Received during SAR Period                           	     298



 Cases Opened by OI                                                                        	       25



 Cases Closed during Reporting Period                                                      	       32



 No Formal Investigative Action Required                                                   	     273



 Cases Open at End of Reporting Period	                                                    	       31



 ◆ Cases Referred to GPO Management that remain pending                                    	        4



 ◆ Cases Referred to Other Agencies                                                        	        0



 ◆ Cases Referred to Office of Audits and Inspections                                      	        2




29	                                                     Office of Inspector General Semiannual Report to Congress
 Current Case Openings by Allegation                                            	31


 ◆ Contract and Procurement Fraud                                               	8    	 26%


 ◆ Employee Misconduct                                                          	6    	 19%


 ◆ Workers’ Compensation Fraud                                                  	10   	 32%


 ◆ Miscellaneous                                                                	7    	 23%




                                                              ■ Workers’ Compensation Fraud

                                                              ■ Contract and Procurement Fraud

                                                              ■ Employee Misconduct

                                                              ■ Miscellaneous




Office of Inspector General Semiannual Report to Congress 	                                   30
Table C-5: Investigations Productivity Summary

 Arrests                                                                                    	                  1

 Total Cases Presented to Prosecuting Authorities                                           	                  5

 Criminal                                                                                   	                  5

 Criminal Declinations                                                                      	                  5

 Convictions                                                                                	                  2

 Guilty Pleas                                                                               	                  3

 Probation (days)                                                                           	             1,825

 Jail Time (days)                                                                           	             1,825

 Restitutions                                                                               	        $117,222

 Civil                                                                                      	                  0

 Civil Declinations                                                                         	                  0

 Amounts Recovered Through Investigative Efforts                                            	        $947,782

 Total Agency Cost Savings Through Investigative Efforts                                    	      ~ $656,400

 Total Administrative Referrals                                                             	                  5

 Contractor Debarments                                                                      	                  0

 Contractor Suspensions                                                                     	                  0

 Contractor Other Actions                                                                   	                  2

 Employee Suspensions                                                                       	                  1

 Employee Terminations                                                                      	                  0

 Employee Warned/Other Actions                                                              	                 11

 Other Law Enforcement Agency Referrals                                                     	                  0




31	                                                        Office of Inspector General Semiannual Report to Congress
Office of Inspector General

732 North Capitol Street, NW
Washington, D.C. 20401

202.512.0039
inspectorgeneral@gpo.gov
www.gpo.gov/oig

OIG Hotline 1.800.743.7574
